              UNIVERSIDAD INTERAMERICANA DE PUERTO RICO
                 NEEDS TO IMPROVE ITS ADMINISTRATION
                         OF TITLE IV PROGRAMS


                                   FINAL AUDIT REPORT
                  Statements that management practices need improvement, as well as other
                conclusions and recommendations in this report, represent the opinions of the
             Office of Inspector General. Determination of corrective action to be taken will be
            made by appropriate Department of Education officials. This report may be released to
               members of the press and general public under the Freedom of Information Act.




                                  Audit Control Number A02-80005
                                           July 23, 1999



Our mission is to promote the efficient                                          U.S. Department of Education
and effective use of taxpayer dollars                                              Office of Inspector General
in support of American education.                                                              New York, NY
                                                     Table of Contents

Executive Summary ...........................................................................................1

Finding 1          IAU over awarded $1,013,401 in Pell Grant funds ....................2
                         Recommendations..............................................................3
                         IAU’s response ..................................................................3
                         OIG comments ..................................................................3

Finding 2          IAU awarded $152,309 in Title IV funds to students enrolled
                   in an ineligible program ..............................................................4
                           Recommendations..............................................................4
                           IAU’s response ..................................................................5
                           OIG comments ..................................................................5

Finding 3          IAU must determine Title IV refunds due, estimated to
                   be $99,198, for withdrawn students............................................6
                          Recommendations..............................................................8
                          IAU’s response ..................................................................8
                          OIG comments ..................................................................8

Finding 4          IAU must use caution when entering students’ addresses into
                   databases .....................................................................................9
                         Recommendations..............................................................9
                         IAU’s response ................................................................10
                         OIG comments ................................................................10

Finding 5          IAU must resolve all conflicting information is students’ files
                   before disbursing Title IV aid...................................................11
                          Recommendations............................................................11
                          IAU’s response ................................................................11
                          OIG comments ................................................................11


Appendix:          Background.................................................................................12
                   Audit objectives...........................................................................12
                   Methodology & scope..................................................................12
                   Internal controls .........................................................................14


Exhibit A:         IAU’s Calculation of Pell Grant Over Awards for 1996/97 and 1997/98
Exhibit B:         Excerpts from IAU’s response to the Draft Audit Report
Universidad Interamericana de Puerto Rico needs to improve its administration of Title IV
programs

Executive Summary

We conducted an audit of Universidad Interamericana’s (IAU) administration of Title IV
programs for the period July 1, 1996 through June 30, 1998. Our specific audit objectives were:

§ To determine the cause of numerous undeliverable Student Aid Reports (SARs); and
§ To follow-up on recent Office of Student Financial Assistance’s (OSFA) findings involving
  refunds and IAU’s Early Admissions Program (EAP).

Our audit disclosed that IAU:

§ Converted 12 certificate programs from clock to credit hours using an improper conversion
  formula which resulted in over awards totaling $1,013,401 in Pell Grants to students for
  award years 1996/97 and 1997/98;
§ Awarded $152,309 in Title IV funds to students enrolled in an ineligible certificate program
  for the award year 1997/98;
§ Failed to identify all refunds due in response to OSFA’s program review; in addition to the
  $1,749,631 identified by IAU as refunds due for award years 1994/95 through 1996/97, an
  estimated $99,198 is due for withdrawn students for award years 1996/97 and 1997/98;
§ Failed to timely pay refunds;
§ Failed to consistently follow U.S. Postal requirements and failed to input data properly,
  resulting in numerous undeliverable SARs; and
§ Failed to resolve conflicting information for one student prior to awarding Title IV funds.

IAU modified its Early Admissions Program in response to OSFA’s concerns and ceased
awarding Title IV funds to EAP students after the 1995/96 award year.

We recommend that IAU refund all Pell Grant funds over awarded to students enrolled in
improperly converted certificate programs and Title IV funds to students enrolled in ineligible
programs. In addition, we recommend IAU review its computer systems to identify all incorrect
coding to ensure that all withdrawn students are properly identified and refunded. IAU must also
use caution when entering addresses into databases for Title IV recipients. Further, IAU must
improve its controls when resolving conflicting information in students’files. We have provided
several recommendations to address the causes of the findings reported.

IAU agrees with the findings reported and has taken action in response to our recommendations.
We have changed our findings to reflect the additional information received from IAU. An
excerpt of the detailed response is attached as Exhibit B. A complete copy of IAU’s response will
be made available upon request.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                 Page 2                          ACN: A02-80005


Finding 1                           IAU converted 12 certificate programs from clock to credit hours
                                    using an improper conversion formula. Federal regulations
IAU over awarded                    require schools that convert clock hour programs to credit hour
$1,013,401 in Pell Grant            programs to use 30 class hours of instruction for one semester
funds                               credit hour. However, IAU used the following:

                                             15 classroom hours = 1 semester credit hour
                                             30 lab hours = 1 semester credit hour
                                             45 internship hours = 1 semester credit hour

        Criteria                    Federal regulation 34 CFR 668.8 (k) states that institutions
                                    offering undergraduate programs in credit hours must use the
                                    ratio of one semester hour for at least 30 clock hours. In
                                    addition, the 1997/98 Student Financial Aid Handbook, Chapter
                                    3, page 219, requires ED’s written approval for changing a
                                    program from clock to credit hours of instruction.

                                    A complete listing of the 12 programs identified with original
                                    clock hours, IAU’s converted credit hours, and OIG’s converted
                                    credit hours can be found in Exhibit A. In response to the draft
                                    audit report, IAU calculated the Pell Grant over awards totaling
                                    $1,013,401 for the students enrolled in these 12 certificate
                                    programs during the 1996/97 and 1997/98 award years.

                                    As reported in Finding 2 in this report, IAU offered two
                                    certificate programs with insufficient course length to be eligible
                                    for Title IV assistance. IAU also improperly converted these
                                    programs from clock to semester credit hours. However, over
                                    award amounts have not been totaled for these two programs
                                    because disallowed costs have been reported as ineligible
                                    programs.

        Failed oversight            Periodically schools must be recertified to participate in the
                                    Student Financial Assistance programs. Recertification
                                    requirements demand institutions provide information for each
                                    educational program requested in order to be eligible to
                                    participate in the Federal Student Financial Assistance programs.
                                    IAU submitted its recertification package in April 1995.
                                    However, IAU failed to report the certificate programs. Further,
                                    IAU did not include these certificate programs in any school
                                    catalogs, resulting in the inability of ED components and IAU’s
                                    accrediting agency to become aware of and monitor the
                                    programs. Had IAU included the certificate programs in
                                    catalogs, ED and/or the accrediting agency could have monitored
                                    the administration of the programs and identified the improper
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 3                          ACN: A02-80005


                                    clock to credit hour conversion and the insufficient course length
                                    discussed in Finding 2 of this report.

Recommendations                     We recommend the Chief Operating Officer for the Office of
                                    Student Financial Assistance require IAU to:

                                    § Refund the Pell Grant program $1,013,401 identified as over
                                      awards for students enrolled in improperly converted
                                      certificate programs for the award years 1996/97 and
                                      1997/98;
                                    § Determine the funds over awarded to students enrolled in
                                      subsequent and prior award years and repay Pell Grant funds;
                                    § Follow the accrediting agency’s recommendation to report all
                                      certificate programs in catalogs; and
                                    § Submit an amended Application for Institutional Participation
                                      including all certificate programs.

IAU’s response                      IAU agreed with the audit finding and calculated the over awards
                                    to students enrolled in the certificate programs. In addition, IAU
                                    has issued a new catalog reporting all certificate programs and is
                                    working with ED on submitting an amended Application for
                                    Institutional Participation.

OIG comments                        IAU’s action should remedy the situation. However, IAU should
                                    reconcile the certificate programs for subsequent and prior year
                                    awards and refund the over awards to ED. IAU should institute
                                    controls to ensure that the Federal guidelines are followed in the
                                    clock to credit hour conversion for future certificate programs.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                 Page 4                          ACN: A02-80005




Finding 2                           IAU awarded $152,309 in Student Financial Aid to students
                                    enrolled in an ineligible certificate program for the award year
IAU awarded $152,309 in             1997/98. However, for the 1998/99 award year, IAU offered a
Title IV funds to students          second program which was also ineligible for Title IV funds
enrolled in an ineligible           because its course length was less than the required 480 clock
program                             hours (16 semester credit hours).

        Criteria                    Federal regulation 34 CFR 668.8 (d) (ii) states eligible programs
                                    must be at least 16 semester hours or the equivalent 480 clock
                                    hours.

        Insufficient program        Audit testing identified two certificate programs with insufficient
        length                      clock hours. These two programs, Computer Science at the
                                    Barranquitas campus, and Medical Billing at Guayama campus
                                    are 405 and 465 clock hours, respectively. The Computer
                                    Science program is ineligible for just the 1998/99 award year
                                    because in prior years the program was offered at 645 clock
                                    hours. In response to the draft audit report, IAU calculated that
                                    it had improperly awarded $152,309 to students enrolled in the
                                    Medical Billing program for award years 1996/97 and 1997/98.
                                    However, IAU has not computed ineligible awards for the
                                    Computer Science program for the 1998/99 award year.

Recommendations                     We recommend the Chief Operating Officer for the Office of
                                    Student Financial Assistance require IAU to:

                                    § Refund $152,309 in Title IV funds awarded to students in the
                                      ineligible certificate program;
                                    § Institute adequate procedures to ensure that Title IV funds
                                      are awarded only to students in eligible programs;
                                    § Calculate Title IV awards to students enrolled in the
                                      Computer Science program at Barranquitas for the 1998/99
                                      award year and refund the funds to ED and lenders; and
                                    § Determine if any funds should be refunded for students
                                      enrolled in ineligible programs prior to the audit period.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 5                        ACN: A02-80005


IAU’s response                      IAU agreed with the finding and calculated the amount of Title
                                    IV funds to be refunded to ED and lenders for the Medical Billing
                                    program. IAU reported the Computer Science program at
                                    Barranquitas was 645 clock hours for award years 1996/97 and
                                    1997/98. The program was reduced to 405 clock hours in
                                    1998/99. IAU computed the Pell Grant over award for award
                                    years 1996/97 and 1997/98; these amounts are included in
                                    Finding 1.

OIG comments                        IAU actions should remedy the situation. IAU should determine
                                    if additional funds are due to ED and lenders for award years
                                    prior to the audit period.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 6                          ACN: A02-80005




Finding 3                    IAU failed to implement proper controls for identifying all Title
                             IV refunds due for withdrawn students. As a result, we estimate
IAU must determine Title IV that IAU must refund $99,198 in Title IV funds for students who
refunds due, estimated to be stopped attending classes during the 1996/97 and 1997/98 award
$99,198, for withdrawn       years. IAU also was late in paying refunds for 44 withdrawn
students                     students included the total population of students tested. These
                             refunds ranged from 3 to 389 days late, with the average being
                             174 days late.

        Criteria                    Federal regulation 34 CFR 668.22 (h) (2) (iv) states that for Pell,
                                    SEOG, and Federal Perkins programs, an institution must return
                                    the Federal portion of the refund within 30 calendar days of the
                                    date the student officially withdraws or the date the school
                                    discovers that the student has unofficially withdrawn. In addition,
                                    34 CFR 682.607 (c) (1) states that FFEL and FDLP refunds must
                                    be returned to the lender or the loan program within 60 days of
                                    the student officially withdrawing, or the date the school
                                    discovers that the student has unofficially withdrawn, or the
                                    expiration of the semester in which the student withdrew.

        OSFA’s refund finding       In May and June 1996, OSFA reported that IAU failed to apply
                                    appropriate refund policies. In response to the program review,
                                    IAU has identified approximately $1,749,631 in refunds due to
                                    lenders and ED for award years 1994/95 through 1996/97. IAU
                                    has yet to pay the refunds because they have not been instructed
                                    to do so.

                                    We conducted a limited review of IAU’s new refund policy and
                                    found that the corrected refund policy was in place. Audit tests
                                    performed to verify that IAU had properly refunded Title IV
                                    funds to students who earned no college credit for any semester
                                    in the 1996/97 and 1997/98 award years revealed two refund
                                    problems:

                                    § IAU failed to identify all withdrawn students in response to
                                      the program review and also for the 1997/98 award year; and
                                    § IAU made refunds late.

        OIG refund tests –          For award years 1996/97 and 1997/98 we identified, from the
        1996/97                     electronic data submitted by IAU, all students who earned no
                                    college credit but received Title IV aid. From this universe, we
                                    identified all students who had withdrawn within the timeframe of
                                    possibly having a refund due under Federal refund guidelines.
                                    Lastly, we traced these students to IAU’s listing of refunds due
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                       Page 7                               ACN: A02-80005


                                      for the 1996/97 award year compiled in response to the program
                                      review. As a result, we identified a universe of 213 students who
                                      withdrew within the timeframe of having a refund due for the
                                      1996/97 award year.

                                      A total of 91 of the 213 students were selected for testing. From
                                      the universe tested, we identified the following:

                                      §    63 students (69%) require refunds;
                                      §    14 students (16%) had refunds paid on time;
                                      §    13 students (14%) were enrolled; and
                                      §    1 student (1%) was refunded 35 days late.

                                      To estimate refunds due for the 1996/97 award year, we applied
                                      the above results to the 213 students identified as having
                                      withdrawn within the timeframe of having a refund due, and
                                      estimated that 148 students require refunds for the 1996/97
                                      award year. Based on the average Title IV aid received of
                                      $1,281 and 25%1 for an applicable refund percentage, we
                                      estimate Title IV refunds could be $48,984 for students who
                                      stopped attending during the 1996/97 award year.

         OIG refund tests –           For award year 1997/98, electronic data identified a total of 659
         1997/98                      Title IV recipients as having earned no college credit and
                                      withdrawing within the timeframe of possibly having a refund
                                      due. We randomly selected 80 students for testing and found:

                                      §    23 students (29%) require refunds;
                                      §    11 students (14%) had refunds paid on time;
                                      §    3 students (3%) were enrolled; and
                                      §    43 students (54%) had refunds paid on average 177 days late.

                                      To estimate refunds due for the 1997/98 award year, we applied
                                      the 29% of students requiring a refund to the 659 students
                                      identified as having withdrawn within the timeframe of having a
                                      refund due and estimated that 189 students require refunds.
                                      Based on the average Title IV aid received of $1,062 and 25% for
                                      an applicable refund percentage, we estimate Title IV refunds
                                      could be $50,214 for students who stopped attending during the
                                      1997/98 award year.

         Understated estimate         Additional tests performed on students identified by IAU on

1       We used the lowest refund percentage that can be applied for determining refunds based on the date a student
withdraws when in fact, some students withdrew on a date when a higher percentage should have been used.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 8                         ACN: A02-80005


                                    electronic databases as students with no college credits earned
                                    and no Title IV aid for award years 1996/97 and 1997/98
                                    revealed students who actually received Title IV aid. Testing
                                    revealed these students had refunds due and late refunds paid. As
                                    a result, the $99,198 questioned costs are underestimated.

        Identification of           IAU’s computer system does not support Federal guidelines for
        withdrawn students          processing Title IV refunds. IAU is working on modifying the
                                    system in order to make it compatible with Title IV refund
                                    requirements. IAU officials were unable to provide us with a
                                    specific cause for late refunds paid on average 174 days late.

Recommendations                     We recommend the Chief Operating Officer for the Office of
                                    Student Financial Assistance require IAU to:

                                    § Repay lenders and ED the $1,749,631 in refunds identified as
                                      part of OSFA’s program review;
                                    § Revise its computer system to identify all incorrect coding to
                                      ensure that all withdrawn students are properly identified and
                                      refunded;
                                    § Identify and refund all Title IV funds due to lenders and ED
                                      for the 1996/97 through 1998/99 award years; and
                                    § Follow Federal guidelines regarding timely payments of
                                      refunds.

IAU’s response                      IAU agrees with the finding and will await payment instructions.
                                    IAU has developed and implemented procedures to improve
                                    existing codes to ensure all withdrawn students are properly
                                    detected and refunded according to Federal refund policies and
                                    datelines.

OIG comments                        IAU actions should remedy the situation. However, the refund
                                    amount reported in the finding is an estimate. IAU must
                                    determine the refunds due to ED and lenders for all withdrawn
                                    students requiring refunds for the award years 1996/97 and
                                    1997/98. IAU should also ensure that all refunds have been
                                    properly identified for the 1998/99 award year.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 9                          ACN: A02-80005




Finding 4                           IAU failed to properly input addresses in the Student Aid Reports
                                    (SARs) of approximately 700 students for the 1996/97 award
IAU must use caution when           year. IAU did not always follow U.S. Postal requirements, and
entering students’ addresses        data input errors resulted in SARs being returned to the central
into databases                      processor as undeliverable. In addition, the address fields for the
                                    Free Application for Federal Student Aid (FAFSA) is 28
                                    characters. As a result, in some instances, the number of
                                    characters was not sufficient for students’addresses.

                                    From the universe of 700 students with undeliverable SARs, we
                                    selected a judgmental sample of 25 students from the Rio Piedras
                                    campus and found that one student did not attend IAU and did
                                    not receive Pell Grant funds. For the remaining 24 students, we
                                    compared the SAR addresses to the addresses in the students’
                                    files and determined that 15 of the 24 addresses in the SARs
                                    agreed with the addresses in the students’files. The remaining
                                    nine students had the following address problems:

                                    § 6 had too many characters for address fields, or had incorrect
                                      abbreviations in the inputted addresses; and
                                    § 3 had data input errors.

                                    We sent questionnaires to the 25 students selected for testing, of
                                    which two were returned as undeliverable. These two are
                                    included in the nine students with address problems.

        Criteria                    Federal regulation, 34 CFR 668.16(f) states that “To begin and
                                    continue to participate in any Title IV, HEA program, an
                                    institution shall. . . Develop and apply an adequate system to
                                    identify and resolve discrepancies in the information that the
                                    institution receives from different sources with respect to a
                                    student’s application for financial aid. . .”

Recommendations                     We recommend the Chief Operating Officer for the Office of
                                    Student Financial Assistance require IAU to:

                                    § Work with the U.S. Postal Service to identify proper
                                      abbreviations for island addresses; and
                                    § Provide orientation to students and financial aid personnel for
                                      proper input of data.

                                    In addition, the Chief Operating Officer should work with the
                                    FAFSA contractor to determine if the address character fields can
                                    be expanded.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 10                         ACN: A02-80005



IAU’s response                      IAU agrees with the finding and will enforce corrective action for
                                    alerting financial aid directors of the importance of verifying all
                                    addresses are input correctly. IAU concurs that the Chief
                                    Operating Officer of Student Financial Assistance should request
                                    modifications to the ED Express program.

OIG comments                        IAU’s actions should remedy the situation.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 11                          ACN: A02-80005




Finding 5                           As a result of financial aid personnel not being familiar with Title
                                    IV regulations, IAU failed to resolve conflicting information for
IAU must resolve all                one student resulting in an improper disbursement of Pell Grant
conflicting information in          funds totaling $3,348 for the 1995/96 and 1996/97 award years.
students’ files before              Conflicting information appeared in a student’s Social Security
disbursing Title IV aid             number and the student’s name as reported in the FAFSA, and
                                    the 1995/96 and 1996/97 Electronic Student Aid Reports
                                    (ESAR).

        Criteria                    According to 34 CFR 690.61, in order for a student to receive a
                                    Pell Grant, the university should receive a valid SAR or ESAR;
                                    valid means that the information has to be accurate and complete.
                                    When there is a discrepancy, the university is responsible for
                                    verifying that the discrepancy be corrected.

Recommendations                     We recommend the Chief Operating Officer for the Office of
                                    Student Financial Assistance require IAU to:

                                    § Return the $3,348 of Title IV aid improperly disbursed; and
                                    § Institute controls to ensure all discrepancies and conflicting
                                      information is resolved before disbursing Title IV aid.

IAU’s response                      IAU agreed with this finding and will refund the money when
                                    instructed by OPE. Also, IAU has re-oriented all Financial Aid
                                    Directors about the importance of following procedures to
                                    comply with this requirement.

OIG’s comments                      IAU’s actions should remedy the situation.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                               Page 12                         ACN: A02-80005



Background                          Universidad Interamericana de Puerto Rico, also known as
                                    InterAmerican University (IAU), is a private co-educational, non-
                                    profit institution of higher education. Founded in 1912 as the
                                    Polytechnic Institute of Puerto Rico, it offered elementary and
                                    secondary education on the land occupied today by the San
                                    German Campus. College-level courses were started in 1921.
                                    The first students graduated in 1926 with Bachelor degrees.

                                    In 1944, IAU became the first four-year Liberal Arts college to
                                    be accredited outside the continental United States by the Middle
                                    States Association of Colleges and Schools (MSA). IAU’s
                                    School of Law is accredited by the American Bar Association.
                                    IAU’s Associates, Bachelor, Master and Doctoral degrees are
                                    licensed by the Council on Higher Education of Puerto Rico,
                                    while its technical vocational programs are licensed by the Puerto
                                    Rico General Council of Education. IAU is approved by the
                                    Veterans Administration and Puerto Rico’s Department of
                                    Education. The School of Optometry was inaugurated in 1981.

                                    Enrollment is over 42,000 and constitutes approximately 25
                                    percent of the Island’s college students, and 40 percent of the
                                    students who attend the Island’s private higher educational
                                    institutions. Campuses are located in Aguadilla, Arecibo,
                                    Barranquitas, Bayamon, Fajardo, Guayama, Ponce, Rio Piedras,
                                    and San German.

                                    IAU participates in the Pell, SEOG, CWS, Perkins, and FFEL
                                    programs. Per electronic data provided by IAU, Title IV funds
                                    disbursed during the 1996/97 award year totaled approximately
                                    $106,677,197, and $67,753,318 during the 1997/98 year.
                                    However, these totals are understated based on audit testing.

Audit objectives                    Our objectives were to (1) determine the cause(s) of numerous
                                    undeliverable Student Aid Reports (SARs); and (2) follow-up on
                                    recent OSFA findings involving refunds and the Early Admissions
                                    Program.

Methodology & scope                 To accomplish our objectives, we interviewed officials at IAU
                                    and evaluated the institution’s processes for administering Title
                                    IV funds. We reviewed Federal regulations and the Student
                                    Financial Aid Handbook to determine whether IAU was
                                    administering the programs following specific guidelines. We also
                                    reviewed information maintained at the Puerto Rico General
                                    Council of Education and the Council on Higher Education of
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 13                         ACN: A02-80005


                                    Puerto Rico. We also reviewed IAU’s A-133 audit report for the
                                    year ending June 30, 1997, the program review reports issued by
                                    the Office of Student Financial Assistance for the period June 1,
                                    1993 to July 31, 1996, and IAU’s responses to the program
                                    reviews.

                                    Using OSFA’s listing of undeliverable SARs, we judgmentally
                                    selected 25 students for testing why the SARs were
                                    undeliverable. We mailed questionnaires to these 25 students, of
                                    which two were returned by the post office as “return to sender
                                    for insufficient address” or “address unknown.” We received no
                                    completed questionnaires. We telephoned 15 of the remaining 23
                                    students and verified that they attended IAU. From this sample,
                                    we tested for general compliance with SFA regulations.

                                    IAU provided data in electronic format for Title IV recipients for
                                    the 1996/97 and 1997/1998 award years. We used these files to
                                    determine the questioned costs reported for findings involving
                                    students enrolled in ineligible programs and refunds due.
                                    Judgmental and random samples were used to test the reliability
                                    of electronic data provided by IAU. See Data reliability
                                    assessment below.

        Audit period                Our audit covered the period July 1, 1996 through June 30, 1998.
                                    We performed fieldwork at IAU’s Rio Piedras campus from
                                    September 23, 1997 to March 24, 1999. We also conducted site
                                    visits and conducted interviews at the following campuses:
                                    Aguadilla, November 17, 1998; Arecibo, November 12, 1998;
                                    Barranquitas, November 13, 1998; Bayamon, November 24,
                                    1998; Fajardo, November 18, 1998; Guayama, November 6,
                                    1998; Ponce, November 16, 1998; and San German, November
                                    17, 1998.

                                    Our audit was conducted in accordance with generally accepted
                                    government auditing standards appropriate to the audit scope.

        Data reliability            For the electronic information tested, we traced data on a
        assessment                  sampling basis back to source documents at IAU. We found the
                                    electronic information to be accurate but incomplete. We
                                    determined that some data for the 1996/97 and 1997/98 award
                                    years was missing. As a result, the data used as the basis for the
                                    opinions, conclusions, and recommendations in this report is
                                    underestimated.
Final – Universidad Interamericana de Puerto Rico
Rio Piedras, Puerto Rico                                Page 14                         ACN: A02-80005


Internal controls                   As part of our audit, we performed a limited assessment of the
                                    system of internal controls, policies, procedures, and practices
                                    applicable to IAU’s administration of Title IV programs. We
                                    relied primarily on the results of substantive tests to evaluate
                                    controls.

                                    For the purpose of this report, we assessed and classified the
                                    significant controls into the following categories:

                                    § Student eligibility; and
                                    § Program eligibility.

        Material weaknesses         Because of inherent limitations, a study and evaluation made for
                                    the limited purposes described above would not necessarily
                                    disclose all material weaknesses in the internal controls.
                                    However, our assessment disclosed weaknesses, specifically
                                    failure to properly identify withdrawn students and improperly
                                    award Title IV funds to students enrolled in ineligible programs,
                                    which could adversely affect the Department’s ability to assure
                                    that the Title IV programs are effectively administered. These
                                    weaknesses and their effects are discussed in the findings of this
                                    report.
